September 27, 2001

THOMAS G. DAY
VICE PRESIDENT, ENGINEERING

RUDOLPH K. UMSCHEID
VICE PRESIDENT, FACILITIES

SUBJECT: Audit Report – National Refrigerant Management Plan
         (Report Number FA-AR-01-002)

This report presents the results of our audit of the National Refrigerant Management
Plan (Project Number 00HA037FA000). This audit was self-initiated. Our objectives
were to review the progress and evaluate the controls and procedures for
accomplishing the goals of the National Refrigerant Management Plan.

The audit indicated that the Postal Service is making progress in converting the chillers
identified in the National Refrigerant Management Plan. However, progress toward
being “Chlorofluorocarbon Free by 2003” cannot be measured because the Postal
Service does not have an accurate inventory of all facilities using chlorofluorocarbon
refrigerants. The audit also disclosed problems with management control over
refrigerants removed from Postal Service chillers. The Postal Service could not account
for as much as 109,000 pounds of refrigerants, valued at $949,000. Management did
not agree with our estimate, stating there is no dependable process in place to
accurately estimate what should be in the current refrigerant inventory. Management’s
comments and our evaluation of these comments are included in the report.

We recommended that management consider the cost effectiveness of converting
additional chillers before expanding the program. We also recommended that
management strengthen accounting procedures for refrigerants removed from facilities.
Although management did not fully agree with our estimated amount of unaccounted for
refrigerants, they concurred with our recommendations, and their planned actions are
responsive to our concerns.

The Office of Inspector General (OIG) considers recommendations 1, 2, and
4 significant and, therefore, requires OIG concurrence before closure. Consequently,
the OIG requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until OIG
provides written confirmation that the recommendations can be closed. We appreciate
the cooperation and courtesies provided by your staff during the audit. If you have any
questions, or need additional information, please contact Lorie Siewert, director,
Contracts and Facilities, at (651) 855-5856, or me at (703) 248-2300.



John M. Seeba
Assistant Inspector General
 for Financial Management

Attachment

cc: John A. Rapp
    John R. Gunnels
National Refrigerant Management Plan                                  FA-AR-01-002



                                  TABLE OF CONTENTS

Executive Summary                                                              i


Part I


Introduction                                                                  1


   Background                                                                 1

   Objectives, Scope, and Methodology                                         2

   Prior Audit Coverage                                                       3


Part II


Audit Results                                                                 4


   Progress Toward Meeting National Refrigerant Management Plan               4

    Goals

      Inventory of Chlorofluorocarbon Equipment                               4

      Progress Toward Converting Chillers                                     4

      Total Cost of Converting Chillers                                       5

   Recommendations                                                            5

   Management’s Comments                                                      6

   Evaluation of Management’s Comments                                        6


   Management and Control of Postal Service Refrigerant                       7

      Overview of Postal Service Refrigerant Management and Storage           7

      Refrigerant in Postal Service Stockpile                                 8

      Value of Refrigerants                                                   9

      Internal Controls                                                      10

   Recommendations                                                           11

   Management’s Comments                                                     12

   Evaluation of Management’s Comments                                       12


Appendix. Management’s Comments                                              13





                                       Restricted Information
National Refrigerant Management Plan                                               FA-AR-01-002



                                  EXECUTIVE SUMMARY
 Introduction                 This report presents the results of our audit of the Postal
                              Service refrigerant management program for refrigerant
                              equipment with a 50-ton or greater cooling capacity at
                              Postal Service facilities. The report responds to a self-
                              initiated audit by the Office of Inspector General. The
                              objectives of the audit were to review progress and evaluate
                              the controls and procedures for accomplishing the goals of
                              the Postal Service National Refrigerant Management Plan.

 Results in Brief
            Our review indicated that although the Postal Service is
                              making progress in converting the chillers identified in the
                              plan, progress toward meeting the goal of the Postal
                              Service being “Chlorofluorocarbon Free by 2003” cannot be
                              measured because the Postal Service does not have an
                              accurate inventory of all facilities using chlorofluorocarbon
                              refrigerants. Our review also identified weaknesses in the
                              management control over refrigerants removed from Postal
                              Service chillers, which may cause the Postal Service to
                              incur additional costs in the future.

 Summary of                   We recommend the vice president, Engineering, estimate
 Recommendations              the total cost of converting chillers with consideration to the
                              Voice of the Business, the Voice of the Employee, and the
                              Voice of the Customer to determine whether eliminating the
                              use of chlorofluorocarbon refrigerants is justified. We
                              recommend the vice president, Engineering, in conjunction
                              with the vice president, Facilities, implement controls to
                              ensure the shipping requirements of the National
                              Refrigerant Management Plan are followed. We also
                              recommend the vice president, Engineering, establish
                              procedures to ensure that all refrigerants shipped to the
                              Defense Logistics Agency facility are credited to the Postal
                              Service refrigerant stockpile.

 Summary of                   Management agreed with all of our recommendations.
 Management’s                 However, they noted that “Chlorofluorocarbon Free by
 Comments                     2003,” was a slogan, rather than a goal. Management did
                              not fully agree with our estimation of the amount of
                              refrigerants not credited to the stockpile noting that the
                              estimate was the worst-case scenario. Management’s
                              comments, in their entirety, are included in the appendix of
                              this report.




                                                  i
                                       Restricted Information
National Refrigerant Management Plan                                            FA-AR-01-002




 Overall Evaluation of        We understand management’s assertion that
 Management’s                 “Chlorofluorocarbon Free by 2003” was a slogan, not a
 Comments                     Postal Service goal, nonetheless, Maintenance
                              Management Order 026-97 clearly stated this
                              as the program goal for the National Refrigerant
                              Management Plan. Regarding the amount of lost
                              refrigerants, our analysis, as noted in management’s
                              response, is an estimate of the highest amount of refrigerant
                              not accounted for and available for future distribution and
                              use. Management’s planned actions are responsive to our
                              recommendations.




                                                  ii
                                       Restricted Information
National Refrigerant Management Plan                                                       FA-AR-01-002



                                        INTRODUCTION
 Background                   As part of the United States’ commitment to implementing
                              the Montreal Protocol on Substances that Deplete the
                              Ozone Layer, the Congress amended the Clean Air Act in
                              1990. The act divides ozone depleting substances into two
                              classes based on their ozone depleting potential; Class I,
                              which is more damaging to the ozone layer, and Class II,
                              which is less damaging. The act classifies all
                              chlorofluorocarbons as Class I substances, and classifies
                              hydrochlorofluorocarbons as Class II substances. Both of
                              these substances are used extensively throughout the
                              Postal Service; primarily in air conditioning equipment.

                              The act directs the Environmental Protection Agency
                              administrator to promulgate regulations phasing out the
                              production and consumption of Class I and Class II
                              substances. The act defines consumption as the amount of
                              a substance produced in the United States, plus the amount
                              imported, minus the amount exported to parties to the
                              Montreal Protocol. The act does not prohibit the continued
                              use of ozone depleting substances. The Environmental
                              Protection Agency administrator established the phase-out
                              schedule for Class I and Class II substances in 1993, which
                              is shown in Table 1, below.

                                                             Table 1
                                        Phase Out Schedule for Ozone Depleting Substances

                                                             Clean Air Act
                                       Substance             Classification       Phase-Out Date

                                Chlorofluorocarbons               Class I     January 1, 1996
                                Halons                            Class I     January 1, 1994
                                Carbon tetrachloride              Class I     January 1, 1996
                                Methyl chloroform                 Class I     January 1, 1996
                                Hydrochlorofluorocarbons          Class II    January 1, 2003 -
                                                                              January 1, 2030


 Postal Service Efforts       Although the Clean Air Act and the Environmental
 to Limit Use of Class I      Protection Agency do not prohibit the continued use of
 Substances                   Class I substances, the Postal Service implemented a
                              proactive program to limit the use of these substances.
                              Under the Postal Service program, chlorofluorocarbon
                              refrigerants in chillers at Postal Service facilities are to be




                                                    1
                                         Restricted Information
National Refrigerant Management Plan                                              FA-AR-01-002



                              abated by either replacing or retrofitting (herein referred to
                              as conversion) the equipment to non-chlorofluorocarbon
                              refrigerant applications by 2003. Chillers are air
                              conditioning equipment used primarily in medium and large
                              facilities.

                              In 1993, the Postal Service conducted a nation-wide survey
                              of facilities over 50,000 square feet to identify refrigerant
                              equipment with a 50-ton, or greater, cooling capacity in
                              operation at Postal Service facilities. The Postal Service
                              awarded a contract to an independent consulting firm to
                              conduct on-site surveys, develop site-specific abatement
                              actions, prepare budgetary cost estimates, and support
                              needs at the facilities identified by the survey process.

                              In 1996, the Postal Service established a refrigerant
                              recovery and recycling program, designated area refrigerant
                              coordinators, and addressed issues concerning the handling
                              and disposal of refrigerant chemicals. The recovery and
                              recycling program includes reclamation, storage, and
                              distribution of refrigerants. This program is accomplished
                              through an interagency agreement with the Defense
                              Logistics Agency.

                              In 1997, the Postal Service implemented the National
                              Refrigerant Management Plan, which provided centralized
                              funding for the conversion of the chillers. The National
                              Refrigerant Management Plan is funded as a component of
                              the Five Year Capital Investment Plan.

 Objectives, Scope,
          The objectives of the audit were to review the progress and
 and Methodology
             evaluate the controls and procedures for accomplishing the
                              goals of the National Refrigerant Management Plan.

                              To accomplish our objectives, we reviewed Postal Service
                              policies and procedures for the management of
                              chlorofluorocarbon refrigerants at Postal Service facilities,
                              interviewed Postal Service and Defense Logistics Agency
                              officials, reviewed information in the Facilities Management
                              System for Windows, and reviewed contracts for
                              49 completed chiller conversion projects.

                              We identified all chiller conversion projects completed as of
                              May 31, 2000, and determined the status of the refrigerant
                              contained in those chillers. We used May 31, 2000, as the
                              cutoff date for our testing because recovered refrigerants


                                                  2
                                       Restricted Information
National Refrigerant Management Plan	                                              FA-AR-01-002



                               from all projects completed by that date could reasonably be
                               expected to have been shipped to the Defense Logistics
                               Agency in time to be included in the October 2000
                               inventory.

                               We used a two-step process to determine the value of the
                               refrigerants removed from Postal Service chillers, but not
                               credited to the Postal Service refrigerant stockpile at the
                               Defense Logistics Agency. First, we estimated the amount
                               of usable refrigerant available after the reclaiming process.
                               Second, we multiplied the amount of usable refrigerant by
                               the current market value for that type of refrigerant.

                               The Defense Logistics Agency provided us with the current
                               market values for the types of refrigerant currently in the
                               Postal Service stockpile. The Defense Logistics Agency
                               determined the current market values by contacting several
                               refrigerant chemical suppliers and averaging the prices
                               quoted by those suppliers.

                               This audit was conducted from August 2000 through
                               September 2001 in accordance with generally accepted
                               government auditing standards and included tests of
                               internal controls, as were considered necessary under the
                               circumstances. We discussed our conclusions and
                               observations with appropriate Postal Service management
                               officials and included their comments, where appropriate.

 Prior Audit Coverage	         We reviewed Postal Service Office of Inspector General
                               (OIG) reports, Postal Inspection Service reports, and
                               General Accounting Office reports to determine if any
                               reviews were completed on the management of refrigerants.
                               We concluded no directly related reviews had been
                               conducted.




                                                   3
                                        Restricted Information
National Refrigerant Management Plan	                                                           FA-AR-01-002



                                         AUDIT RESULTS
    Progress Toward              Although the Postal Service has made progress in
    Meeting National             converting chillers under the National Refrigerant
    Refrigerant                  Management Plan, the progress toward meeting the goal of
    Management Plan              the Postal Service being “Chlorofluorocarbon Free by
    Goals                        2003”1 and the total cost of meeting the goal cannot be
                                 measured because the Postal Service does not have an
                                 accurate inventory of all facilities using chlorofluorocarbon
                                 refrigerants. However, the Postal Service has initiated an
                                 effort to develop a more accurate inventory of air
                                 conditioning equipment using chlorofluorocarbon
                                 refrigerants at facilities over 15,000 square feet that should
                                 allow better progress measurement and cost determination.

    Inventory of                 In an effort to identify all facilities that use
    Chlorofluorocarbon           chlorofluorocarbon refrigerants, the Postal Service
    Equipment                    conducted a national survey in 1993. This survey included
                                 all Postal Service facilities over 50,000 square feet.
                                 According to Postal Service officials, the intent of only
                                 including facilities over 50,000 square feet in the survey was
                                 to identify facilities with air conditioning equipment with a
                                 50-ton, or greater, cooling capacity.

                                 According to Postal Service officials, the national survey did
                                 not identify all facilities using chlorofluorocarbon
                                 refrigerants. The 50,000 square foot criteria assumed a
                                 load of 1,000 square feet per ton of cooling capacity. We
                                 obtained air conditioning equipment manufacturer
                                 information from Postal Service officials that estimates a
                                 load of approximately 300 square feet per ton of cooling
                                 capacity. Based on this information, the survey should have
                                 included all Postal Service facilities over 15,000 square feet.

                                 The Postal Service has initiated an effort to identify all
                                 cooling equipment at facilities over 15,000 square feet. This
                                 inventory should more accurately identify all equipment with
                                 a 50-ton, or greater, cooling capacity.

    Progress Toward	             We reviewed the Postal Service’s progress toward
    Converting Chillers	         converting the chillers at the 234 facilities identified for
                                 conversion under the National Refrigerant Management
                                 Plan. Through calendar year 2000, chillers at 145 of these
                                 facilities have been converted, and chillers at 89 remain to

1
  Maintenance Management Order 026-97, “United States Postal Service National Refrigerant Management Policies
and Procedures,” states that the Postal Service goal is to be “Chlorofluorocarbon Free by 2003.”


                                                      4
                                           Restricted Information
National Refrigerant Management Plan	                                                                                                        FA-AR-01-002



                               be converted. The chart below shows the number of
                               facilities that have been completed in each year of the
                               program, and the number remaining to be converted.


                                                               National Refrigerant Management Plan Annual
                                                                                 Progress

                                                         70                                                    65.0
                                  Number Of Facilities   60
                                                         50
                                                         40
                                                                                                                           29.7        29.7       29.7
                                                         30                            22.0        24.0
                                                                           20.0
                                                         20     14.0
                                                         10
                                                          0
                                                                1996       1997       1998        1999        2000        2001* 2002* 2003*
                                                                                                        Year
                                                                 * Years 2001 to 2003 show the average number of facilities with chillers that remain to
                                                                                                     be converted.




                               Although the Postal Service identified 234 facilities for
                               conversion, additional efforts are required to identify all
                               facilities with equipment containing chlorofluorocarbon
                               refrigerants before progress toward meeting the goal of
                               being chlorofluorocarbon free can be measured and the
                               cost of meeting the goal can be determined.

 Total Cost of                 The Postal Service implemented the National Refrigerant
 Converting Chillers           Management Plan to provide centralized funding for the
                               conversion of the chillers. The plan is funded as a
                               component of the Five Year Capital Investment Plan. The
                               Postal Service expended $52 million to convert chillers
                               through fiscal year (FY) 1999 and estimated that an
                               additional $40 million will be expended through FY 2005 to
                               convert chillers at the facilities over 50,000 square feet
                               identified in the initial survey process. Because the initial
                               survey process did not identify all facilities with air
                               conditioning equipment using chlorofluorocarbon
                               refrigerants, the Postal Service has not determined the total
                               cost for converting chillers at all facilities.

 Recommendation                We recommend the vice president, Engineering, should:

                               1.	 Determine the total cost of converting the chillers at
                                   facilities greater than 15,000 square feet.


                                                                         5
                                                              Restricted Information
National Refrigerant Management Plan	                                               FA-AR-01-002




 Management’s	                 Management agreed with the recommendation and has
 Comments	                     already distributed Chiller Surveys to all facilities 15,000
                               square feet or larger. They anticipate completing their
                               analysis by February 1, 2002.

 Recommendation
               2.	 After determining total cost, reconsider whether the goal
                                   of eliminating the use of chlorofluorocarbon refrigerants
                                   is economically justified given the Postal Service’s
                                   current financial condition. In the determination,
                                   consideration should be given to the Voice of the
                                   Business, the Voice of the Employee, and the Voice of
                                   the Customer.

 Management’s	                 Management agreed with the recommendation and will use
 Comments	                     the analysis of the data collected from the survey to
                               formulate new policy, which is expected to be completed by
                               March 1, 2002.

 Evaluation of                 Management’s proposed actions are responsive to our

 Management’s                  recommendations.

 Comments





                                                   6
                                        Restricted Information
National Refrigerant Management Plan                                                                FA-AR-01-002




    Management and                The Postal Service converted chillers at 112 facilities
    Control of Postal             containing as much as 254,000 pounds2 of
    Service Refrigerant           chlorofluorocarbon refrigerants prior to May 31, 2000. Of
                                  this amount, approximately 109,000 pounds, or 43 percent,
                                  have not been credited to the Postal Service refrigerant
                                  stockpile at the Defense Logistics Agency. The
                                  chlorofluorocarbon refrigerants were not credited to the
                                  stockpile because the refrigerants were not shipped to the
                                  Defense Logistics Agency, or the refrigerants shipped to the
                                  Defense Logistics Agency were not properly labeled. Used
                                  refrigerants in the stockpile can be reclaimed for future use.
                                  As a result, Postal Service refrigerants currently valued at
                                  as much as $949,000 may not be available for future
                                  distribution and use in Postal Service equipment. In
                                  addition, the Postal Service may incur additional costs to
                                  purchase new refrigerants that would otherwise be available
                                  in the stockpile.

    Overview of Postal            The refrigerant management effort was implemented
    Service Refrigerant           through several maintenance management orders issued by
    Management and                the Engineering division. Two major components of the
    Storage                       Postal Service refrigerant management effort are the
                                  conversion of chillers using chlorofluorocarbon refrigerants
                                  to non-chlorofluorocarbon refrigerants, and a refrigerant
                                  stockpile, reclamation, and redistribution program.

                                  The Postal Service converts chillers using one of
                                  two methods; replacing existing equipment with equipment
                                  that uses non-chlorofluorocarbon refrigerants, or retrofitting
                                  existing equipment to operate with non-chlorofluorocarbon
                                  refrigerants. Under either method, the refrigerant contained
                                  in the existing equipment can be recovered and stored for
                                  future use in maintaining existing equipment.

                                  In 1996 the Postal Service established a centralized
                                  refrigerant management facility at the Defense Logistics
                                  Agency to stockpile, reclaim, and redistribute refrigerants to
                                  Postal Service facilities. Reclamation is the reprocessing of
                                  used refrigerant to at least the purity specified in the Air
                                  Refrigeration Industry 700-1993, “Specifications for
                                  Fluorocarbon Refrigerants.” The stockpile was created to
                                  allow the Postal Service to maximize the use of existing

2
  The amount of refrigerants contained in Postal Service chillers is based on estimates made by an independent
consulting firm in 1994, and may not represent the actual amount of refrigerant in the chillers at the time of
conversion.


                                                        7
                                             Restricted Information
National Refrigerant Management Plan                                                FA-AR-01-002



                              chlorofluorocarbon refrigerants. Maintenance Management
                              Order 020-96, “Clarification of Refrigerant Issues,” requires
                              that when systems containing chlorofluorocarbon
                              refrigerants are converted, the refrigerants should be
                              recovered and shipped to the Postal Service stockpile at the
                              Defense Logistics Agency storage facility. The stockpile
                              serves as an economical alternative to purchasing new
                              refrigerants on the open market that are required for the
                              continued maintenance of existing equipment. The
                              stockpile is, therefore, expected to become valuable in
                              terms of convenience and expenditure avoidance.

 Refrigerant in Postal        As of May 31, 2000, chillers containing chlorofluorocarbon
 Service Stockpile            refrigerants at 112 facilities had been converted. In
                              1994, an independent contractor estimated that the total
                              amount of chlorofluorocarbon refrigerants in the chillers at
                              these facilities was approximately 254,000 pounds.

                              We were unable to confirm the accuracy of the original
                              estimate, and, therefore, the exact amount of refrigerant in
                              the chillers at the time of conversion is unknown. The
                              chlorofluorocarbon refrigerants contained in these chillers
                              may have leaked, or been vented into the atmosphere, been
                              retained by contractors, or been disposed of by other
                              means.

                              We obtained inventory records from the Defense Logistics
                              Agency showing the amount and type of refrigerant in the
                              Postal Service stockpile as of October 2000. These
                              inventory records show that the Postal Service stockpile
                              contains 144,677 pounds of various types of used
                              chlorofluorocarbon refrigerant. Because of the questionable
                              initial inventory and inadequate management controls over
                              the refrigerant inventory at Postal Service facilities, it is not
                              possible to determine the precise amount of refrigerants not
                              credited to the stockpile.

                              We estimated the amount of chlorofluorocarbon refrigerant
                              not credited to the stockpile by subtracting the
                              144,677 pounds that were credited from the
                              254,000 pounds that were estimated to be at the facilities
                              that were converted prior to May 31, 2000. Because these
                              chillers were converted, the refrigerants that were contained
                              at the facilities should have been recovered and shipped to
                              the Postal Service refrigerant stockpile and should be
                              reflected in the October 2000 inventory records. The total


                                                  8
                                       Restricted Information
National Refrigerant Management Plan                                                      FA-AR-01-002



                              amount of chlorofluorocarbon refrigerant not credited to the
                              stockpile is approximately 109,000 pounds, or 43 percent of
                              the total chlorofluorocarbon refrigerant in the chillers that
                              were converted. Because approximately 109,000 pounds of
                              chlorofluorocarbon refrigerant removed from Postal Service
                              facilities was not credited to the stockpile, the Postal Service
                              may unnecessarily incur additional costs to purchase
                              refrigerants that would otherwise be available through the
                              stockpile. Table 2 shows the status of the
                              chlorofluorocarbon refrigerants in Postal Service chillers that
                              were converted through May 31, 2000.
                                                                  Table 2
                                               Postal Service Refrigerant Status

                                                           Quantity in
                                                           Converted         Quantity      Quantity
                                                            Chillers         Credited        Not
                                      Refrigerant          (May 2000)       (Oct. 2000)    Credited
                                chlorofluorocarbon - 11     143,018            65,928       77,090
                                chlorofluorocarbon - 12      77,426            59,010       18,416
                                chlorofluorocarbon - 113     21,013            10,000       11,013
                                chlorofluorocarbon - 500     12,751             9,739        3,012
                                Total                       254,208           144,677      109,531

                              The Postal Service implemented the refrigerant stockpile
                              program to maximize the use of existing assets. The use of
                              these assets is maximized by ensuring the availability of
                              refrigerants for reuse. The availability of the refrigerants
                              allows the Postal Service to continue utilizing existing
                              cooling equipment that uses chlorofluorocarbon refrigerants,
                              rather than converting the equipment to use non-
                              chlorofluorocarbon refrigerants.

 Value of Refrigerants
       Table 3 shows that the total current market value of the
                              109,000 pounds of chlorofluorocarbon refrigerant that was
                              not credited to the stockpile is approximately $949,000. The
                              109,000 pounds of chlorofluorocarbon refrigerant is the
                              maximum amount that may have been available to be
                              shipped to the stockpile, and the dollar value of the
                              refrigerant not credited to the stockpile may be less than
                              $949,000. Because of the inadequate management
                              controls over the refrigerant inventory at Postal Service
                              facilities, we were unable to determine the precise amount
                              of refrigerant that was available to be shipped to the
                              stockpile, and, therefore, could not determine the precise
                              dollar value of the refrigerant that was not shipped to the
                              stockpile.




                                                    9
                                         Restricted Information
National Refrigerant Management Plan	                                                                  FA-AR-01-002




                                                                  Table 3
                                          Estimated Value of Refrigerant Not Credited to Stockpile

                                                                Refrigerant    Estimated     Market
                                                                    Not        Reclaimed      Value
                                                                 Credited      Refrigerant     Per          Dollar
                                           Refrigerant           (Pounds)      (Pounds)3     Pound          Value
                                     chlorofluorocarbon - 11       77,090        57,818       $ 8.54    $   493,766
                                     chlorofluorocarbon - 12       18,416        13,812      $ 22.57    $   311,737
                                     chlorofluorocarbon - 113      11,013         8,260      $ 14.27    $   117,870
                                     chlorofluorocarbon - 500       3,012          2,259     $ 11.65    $    26,317
                                     Total                        109,531        82,149                 $   949,690

    Internal Controls	             We reviewed contracts for 49 completed chiller conversion
                                   projects. The requirement to ship the recovered refrigerants
                                   to the Defense Logistics Agency was included in the
                                   contract for 12 of these projects, and was not included for
                                   the other 37 projects. We confirmed the shipment of the
                                   refrigerants for 11 of the 12 projects that included the
                                   shipment requirement in the contract, and for 17 of the
                                   37 projects that did not include the shipment requirement in
                                   the contract. We believe that including the shipment
                                   requirement in the contract would increase the probability
                                   that the refrigerants will be shipped to the stockpile. In
                                   November 2000, the Facilities division provided additional
                                   guidance to the contracting officers recommending that the
                                   requirements regarding the shipment of recovered
                                   refrigerants to the Postal Service stockpile be incorporated
                                   into the project specifications for all chiller conversion
                                   projects.

                                   Maintenance Management Order 020-96, “Clarification of
                                   Refrigerant Issues,” requires that chlorofluorocarbon
                                   refrigerant shipments to the stockpile be labeled with
                                   information that identifies the shipper’s address and the
                                   shipping activity’s name with a point of contact and
                                   telephone number. Officials at the Defense Logistics
                                   Agency storage facility stated that many of the shipments
                                   received at the storage facility do not contain this
                                   information. In some instances, the source of the shipment
                                   is merely identified as Postal Service, or the source is not
                                   identified. When the source is identified as Postal Service,
                                   the shipment is credited to the Postal Service stockpile.
                                   When the source is not identified, the shipment is not
                                   credited to the Postal Service stockpile.
3
  The Defense Logistics Agency uses a 75 percent factor to estimate the amount of refrigerant that will be available
after the reclamation process. According to the Defense Logistics Agency, 75 percent of the recovered refrigerant is
the amount that remains after the reclaiming process. We used this factor in estimating the amount of refrigerant that
will be available after the reclamation process.


                                                         10
                                               Restricted Information
National Refrigerant Management Plan	                                               FA-AR-01-002




                               We found one instance where refrigerant shipped from a
                               Postal Service facility to the Defense Logistics Agency was
                               not credited to the Postal Service stockpile. We notified
                               officials at the Defense Logistics Agency of this, and they
                               found that the refrigerant was not credited because the
                               shipment was not properly labeled. The Defense Logistics
                               Agency agreed to credit the Postal Service stockpile for the
                               amount of refrigerant contained in this shipment. We
                               believe that properly labeling the refrigerant shipments will
                               ensure that the refrigerants will be credited to the stockpile.

                               Maintenance Management Order 020-96, “Clarification of
                               Refrigerant Issues,” requires that shipment notifications be
                               sent to Postal Service Headquarters, the area
                               environmental compliance coordinators, and the area
                               refrigerant coordinators when refrigerants are shipped to the
                               stockpile. However, the maintenance management order
                               does not specify who is responsible for sending the
                               shipment notifications. We found that the shipment
                               notifications were not sent to Postal Service Headquarters,
                               as required by the maintenance management order. The
                               shipment notification serves as an important internal control,
                               which aids the Postal Service in ensuring that all
                               refrigerants recovered from Postal Service chillers are
                               shipped to the stockpile. The shipment notification allows
                               the Postal Service to reconcile the refrigerant shipments
                               with the refrigerant receipts reported by the Defense
                               Logistics Agency to ensure that the refrigerant shipments
                               are credited to the stockpile. The lack of shipment
                               notifications precludes the Postal Service from reconciling
                               the shipments with the Defense Logistics Agency inventory
                               records. Designating who is responsible for sending the
                               shipment notification to Postal Service Headquarters should
                               increase the likelihood that the shipment notifications will be
                               sent.

 Recommendation                We recommend the vice president, Engineering, should:

                               3.	 Establish procedures to reconcile the Defense Logistics
                                   Agency inventory receipt records with Postal Service
                                   shipment records to ensure that all refrigerant shipments
                                   are credited to the Postal Service stockpile.




                                                  11
                                        Restricted Information
National Refrigerant Management Plan	                                              FA-AR-01-002




 Management’s                  Management agreed with the recommendation and
 Comments                      proposed a joint action between Engineering and Facilities
                               to include Postal Service Headquarters in the routing of
                               shipment notification forms and require weighing of
                               refrigerant containers by contractors and the Defense
                               Logistics Agency. They expect to establish these
                               procedures by February 1, 2002.

 Recommendation	               The vice president, Engineering, in conjunction with the vice
                               president, Facilities should:

                               4.	 Establish procedures that will ensure that all contracts
                                   include requirements that the refrigerants be recovered,
                                   properly labeled, and shipped to the Defense Logistics
                                   Agency for all projects involving the conversion of Postal
                                   Service chillers.

 Management’s	                 Management agreed with the recommendation and has
 Comments	                     reemphasized the program requirements, and plans to
                               update master contract specifications for distribution via
                               hardcopy and CD-ROM by March 2002.

 Recommendation                5.	 Designate who will be responsible for notifying Postal
                                   Service Headquarters of refrigerant shipments to the
                                   stockpile.

 Management’s	                 Management agreed with the recommendation and will
 Comments	                     implement new procedures to require the Contracting
                               Officer to submit shipment notification forms. This new
                               policy will be implemented in December 2001.

 Evaluation of                 Management’s proposed actions are responsive to our

 Management’s                  recommendations.

 Comments





                                                  12
                                        Restricted Information
National Refrigerant Management Plan                            FA-AR-01-002




                    APPENDIX. MANAGEMENT’S COMMENTS




                                                 13

                                       Restricted Information
National Refrigerant Management Plan                            FA-AR-01-002




                                                 14

                                       Restricted Information
National Refrigerant Management Plan                            FA-AR-01-002




                                                 15

                                       Restricted Information
